             OFFICE OF ECONOMIC
                  ANALYSIS

                    EXECUTIVE SUMMARY
Our review of the Office of Economic Analysis (OEA) found that OEA’s work
(including research studies and rule-making analyses) is beneficial to the
Commission. Commission senior staff were complimentary of OEA’s assistance.
Some staff made suggestions to enhance that assistance.
We also found that the Chief Economist hired motivated staff whose interests are
aligned with Commission interests, sought to produce high-quality analyses and
encouraged staff to take advantage of training opportunities.
Our recommendations concern training OEA’s managers; dividing office operations
between the Chief Economist and other OEA managers; Commission awareness of
OEA’s services; guidance to OEA management on Commission expectations; and
enhancing OEA’s internal operations, policies and procedures.
OEA generally agreed with the report’s recommendations.



                 OBJECTIVES AND SCOPE
Our objectives were to evaluate the usefulness of OEA’s activities and to identify
possible improvements. We began the audit after receiving information that several
OEA staff were working on projects that were not considered useful to the
Commission, the office was mismanaged and productivity has declined.
Certain staff members raised various issues with the Commission’s Office of Equal
Employment Opportunity (EEO). Although we considered the EEO issues during
our review, they were not a focus of our analysis.
During the survey, we interviewed OEA and other Commission staff, and reviewed
OEA work products and files. We also contacted staff in the economic analysis
departments of two other federal government agencies (the Commodities Futures
Trading Commission and the Federal Trade Commission) to benchmark the
Commission’s program and to identify possible best practices. We also followed up
on recommendations in our prior review of OEA (Audit No. 251, issued February 7,
1997).
The audit was performed from February 2004 to May 2004 in accordance with
generally accepted government auditing standards.


OFFICE OF ECONOMIC ANALYSIS (AUDIT 385)                                   June 29, 2004
                                                                                       2



                            BACKGROUND
Currently, OEA has 34 staff, consisting primarily of economists with backgrounds in
finance, economics or related fields. Eight of the staff are university professors
appointed to a one or two year term under the Intergovernmental Personnel Act
(IPA).
The IPA program allows employees of non-Federal organizations to be temporarily
assigned to federal agencies for up to two years. The program’s purpose is to
improve government operations by obtaining staff with specialized knowledge and
experience. IPA assignments allow the sharing of scarce expertise between the
government and outside organizations (e.g., educational institutions), and provide
valuable experience for IPA staff.
A Chief Economist and a Deputy Chief Economist manage OEA. In addition, OEA
plans to hire four additional managers as part of a Commission-approved
reorganization.
OEA’s current Chief Economist, a university professor who took a two-year leave of
absence to join the Commission, is leaving the Commission in June 2004, to return
to his university.
OEA primarily serves to support the work of the Commission. The Office provides
economic analysis and expertise during rulemaking and other Commission projects.
OEA also performs independent research to enable the Commission to better
understand the securities markets and thereby enhance market oversight.
Some examples of recent work by OEA follow:
   •   Assisting the Division of Enforcement in calculating the monetary harm to be
       assessed on securities law violators;
   •   Analyzing the transparency of municipal and corporate bond transaction data
       for the Office of Municipal Securities;
   •   Researching the effect that certain illegal acts have on security prices;
   •   Analyzing mutual fund data to help the Commission target companies that
       may be engaged in market-timing and after-hours trading;
   •   Performing studies to measure the impact of decimalization and short-selling
       on the market;
   •   Providing advice to the Commission regarding the valuation of derivatives in
       company financial statements;
   •   Providing assistance to the Chief Accountant on pension accounting issues;
   •   Evaluating the Management Discussion and Analysis sections of public
       company financial statements to determine if they contain adequate
       disclosures; and
   •   Analyzing corporate off-balance sheet transactions, based on a Sarbanes-
       Oxley Act Congressional requirement.



OFFICE OF ECONOMIC ANALYSIS (AUDIT 385)                                     June 29, 2004
                                                                                        3



                           AUDIT RESULTS
We found that the OEA staff were working on projects that were useful to the
Commission. Moreover, the staff collectively appeared to have the necessary
expertise and experience to fulfill the Office’s mission of providing economic analysis
to the Commission.
We also found that the Chief Economist hired motivated staff whose interests are
aligned with Commission interests, has encouraged staff to take advantage of
training opportunities and sought to produce high-quality analyses.
Commission senior staff were complimentary of OEA’s assistance and planned to
continue using OEA’s services.
We believe that OEA can improve its operations in several respects, as described
below.


MANAGEMENT TRAINING
As stated in the Background, a new Chief Economist will join the Commission in
July 2004, and four new OEA managers are being hired as part of a reorganization.
In addition, the Deputy Chief Economist will have new responsibilities because of
the reorganization.
OEA’s managers will need training to enable them to carry out their new
responsibilities. The training should include, but not be limited to: an orientation to
the various Commission offices and divisions; rules relating to publishing research
and other ethics rules; government procurement regulations; the employee
performance management system; policies and procedures relating to the union,
EEO, and grievances; and employee relations, leadership, teambuilding, and conflict
resolution.
The training can be obtained from the Employee Development Branch in the Office
of Human Resources and Administrative Services, private vendors, and the Ethics
Office, as appropriate. OEA’s managers could also participate in retreats and
training seminars with other Commission managers.
       Recommendation A
       OEA should provide training to its managers as discussed above.


MANAGEMENT DUTIES
OEA’s Chief Economists typically return to their academic institutions after a two-
year period. As college professors, their focus is on research and teaching, rather
than day-to-day management. Their knowledge of the Commission’s organizational
structure (as opposed to the securities markets) is necessarily limited. Accordingly,
their strengths would relate to policy setting, strategic research initiatives, and
hiring of distinguished staff.



OFFICE OF ECONOMIC ANALYSIS (AUDIT 385)                                     June 29, 2004
                                                                                       4


On the other hand, the Deputy Chief Economist and supporting management are
career civil service positions. These positions could be appropriately devoted to day-
to-day management, employee relations, and compliance with government rules.
Appendix A contains an example of how duties could be divided between the Chief
Economist and other OEA managers. While there could be overlapping duties, it
would be useful to assign most day-to-day management responsibilities to the
Deputy Chief Economist (and supporting OEA management), allowing the Chief
Economist to focus more exclusively on policy issues.
       Recommendation B
       The Commission’s Executive Director and the Managing Executive Director
       for Operations, in consultation with OEA, should decide how duties should be
       divided in OEA.


COMMISSION GUIDANCE ON PRIORITIES AND RESEARCH
NEEDS
We found that the majority of OEA’s activities result from its direct support of office
and division initiatives and are beneficial to the Commission. The Chief Economist
also chooses some independent research projects. In choosing these projects, the
Chief Economist strives to initiate projects that add value to the Commission.
A risk for OEA is that its independently chosen research may not always directly
support the Commission’s mission or current priorities, and hence may be
disregarded by the Commission. Sufficient means have not yet been developed for
OEA to obtain guidance on Commission priorities.
Such guidance would help OEA better contribute to the Commission by clarifying
the best allocation of time between OEA’s research activities and its direct support
of divisions and offices. The guidance would also identify research projects for OEA
to work on. One way to obtain this guidance would be for the Chairman to include
the Chief Economist in the Chairman’s weekly senior staff meetings. Additionally,
OEA could routinely meet with division directors to learn about new rulemakings
and other items of importance.




       Recommendation C
       In consultation with the Chairman’s Office, OEA should develop ways to
       obtain guidance on Commission priorities and research needs. OEA should
       also routinely meet with division directors.




OFFICE OF ECONOMIC ANALYSIS (AUDIT 385)                                     June 29, 2004
                                                                                       5



AWARENESS OF OEA ACTIVITIES
We found that some Commission managers are not sufficiently aware of the services
OEA offers. We have some suggestions to help OEA increase Commission
awareness of its services.
Webpage
OEA does not have a webpage on the Commission’s Intranet (the Insider). This
webpage could contain descriptions of the office and services offered by OEA, its
research and other activities, an organizational chart, a listing of staff and data
resources, contacts for assistance and links to other relevant information.
Additionally, OEA’s public Internet webpage at
http://www.sec.gov/about/economic.shtml has not been updated since January 2003
(e.g., to show current staff) and could also contain information that OEA chooses to
list on an “Insider” webpage.
       Recommendation D
       In consultation with the Office of the Secretary (which maintains the Insider
       webpages), OEA should develop a webpage on the “Insider” containing the
       information discussed above. OEA should also update its public webpage on
       the Internet.
E-Mailing Literature
Commission staff told us they would welcome receiving relevant academic articles or
other professional literature from OEA. OEA could ask Commission staff if they
would like to join an e-mail list so they could receive literature that is relevant to
their field (or OEA could simply e-mail literature to relevant Commission staff as it
comes across such literature).
       Recommendation E
       OEA should e-mail professional literature to staff expressing an interest in
       such material.
Press Releases
OEA staff informed us that a press release was formerly issued when new staff
joined OEA. The releases were distributed to all Commission employees via e-mail
and described the employee’s background and planned work in OEA. The releases
were discontinued some time ago.
       Recommendation F
       OEA should consider resuming issuing press releases for new OEA staff.


WORKING PAPERS
Recently, OEA has proposed initiating a Working Paper Series to publicize its
research findings. OEA has consulted the Office of General Counsel (OGC) to
ensure that relevant legal and ethical considerations are addressed.


OFFICE OF ECONOMIC ANALYSIS (AUDIT 385)                                     June 29, 2004
                                                                                         6


OEA plans to subject its Working Papers to peer review. The Office of Management
and Budget is encouraging federal agencies to use peer review as a quality
assurance measure. 1
           Recommendation G
           OEA should implement its planned Working Papers Series, consistent with
           OGC legal guidance. Subjecting the working papers to peer review would be
           useful.


CODE LIBRARY
OEA staff sometimes write computer code to facilitate data analysis. While many
codes are complex and unique, others are generic and can be reused for data
analysis, saving time.
Several staff agreed that it would be useful if OEA set up a code library, accessible
to all OEA staff. The library would include a brief description of each code available
to OEA and the originator’s name in an electronic index.
           Recommendation H
           OEA should consider setting up a code library that is accessible to all OEA
           staff, as discussed above.


POLICIES AND PROCEDURES
Personal Research
As explained in the Background, OEA hires some of its staff through the IPA
program. These employees are typically professors who will return to their academic
institutions after their OEA term appointment ends. These staff typically need to
publish research studies in order to become tenured at their universities.
One risk of this arrangement is that IPA staff could focus more on their personal
research than on Commission-related research. The current Chief Economist told us
that he has sought to hire IPAs whose personal interests are aligned with
Commission goals. In addition, he indicated that he has stressed to his IPA staff
that they must prioritize Commission work.
We found that the current IPAs generally devote their time to Commission related
work. However, OEA lacks written procedures to this effect. Written procedures
would be especially useful because OEA is undergoing a reorganization and hiring
new management.
Written procedures should also address personal research conducted by permanent
staff members, who could also be inclined to work on personal research
studies/publishing.
           Recommendation I
1
    OMB Revised Bulletin on Peer Review (# 2004-08). April 15, 2004.


OFFICE OF ECONOMIC ANALYSIS (AUDIT 385)                                       June 29, 2004
                                                                                           7


       OEA should implement written procedures to help ensure that research by
       IPAs and permanent staff focuses on Commission priorities (e.g., considering
       past research by candidates in the hiring process, notifying new staff in
       writing that Commission-related research has priority, and establishing
       guidelines for and monitoring personal research by staff).
Tracking Projects
OEA staff work on numerous projects, from long-term research or rulemaking to ad
hoc projects lasting only a few days. Recently, OEA began tracking projects through
a Workflow Tracking System in a Microsoft Access database.
The tracking system identifies the staff member assigned, the hours charged to the
project, the division or office being assisted, and the project’s priority, due date and
completion date. The system is intended for Commission workflow tracking and
budget support, and as a historical record of OEA work. OEA is considering
eventually revising or replacing the system.
We found that several staff were not consistently tracking their work in the system,
which limited its usefulness.
       Recommendation J
       OEA should develop procedures to ensure that data in its tracking system (or
       a replacement) are complete and accurate.
Project Re-Assignments Upon Employee Departures
OEA staff, especially IPA staff, frequently leave the Commission after one or two
years. This staff turnover creates a risk that projects may not be completed when a
key person leaves. OEA currently does not have procedures to mitigate this risk.
       Recommendation K
       OEA should develop procedures to ensure that departing employees
       document their projects and the projects are reassigned before their
       departure.
Archiving
OEA stores hard copies of its studies and other work in folders organized by month.
An Access database lists the documents and where they can be found.
An OEA staff member occasionally reminds staff to archive their work. However,
several staff told us that they do not know which documents to archive or do not
archive their documents. OEA’s policies and procedures manual does not explain
which documents to archive or the format of archived documents.
       Recommendation L
       OEA should issue a written policy explaining which documents to archive
       and their format.




OFFICE OF ECONOMIC ANALYSIS (AUDIT 385)                                       June 29, 2004
                                                                                    8



SURVEY OF SENIOR STAFF
We surveyed several Commission senior staff in the Divisions of Enforcement,
Market Regulation, Investment Management and Corporation Finance, and in the
Office of Compliance, Inspections and Examinations (OCIE). We asked the staff for
their opinion of OEA’s work and any suggestions for improvement.
Overall, the staff surveyed were pleased with OEA’s work and planned to continue
using OEA’s services. They also offered some suggestions for enhancing OEA’s
services. Their comments are summarized in Appendix B.
      Recommendation M
      OEA should consider the suggestions in Appendix B and take appropriate
      action.




OFFICE OF ECONOMIC ANALYSIS (AUDIT 385)                                June 29, 2004
                                                                                                APPENDIX A


           Illustrative Examples of Division of Management Responsibilities2


Chief Economist                                            Deputy Chief Economist
Recommends Commission action and advises the               Manage Operations
Chairman and Commission on major economic
policy issues.
Establish office policy                                    Implement office policy
Define OEA’s mission and strategy                          Work under the general policy direction of the
                                                           Chief Economist with wide latitude to exercise
                                                           independent judgment.
Prioritize resources                                       Prepare office budget and performance goals
Conduct risk assessments                                   Provide rule-making support
Implement Commission advice                                Act as an OIT contact
Develop OEA’s research agenda                              Decide personnel issues
Hire staff                                                 Hire staff
Liaison with the Commission                                Supervise staff
Give speeches                                              Complete employee performance appraisal process
Delegate authority to the Deputy Chief Economist           Assign work
to act on behalf of the Chief Economist
Ensure proposed projects contribute to Commission          Support Chief Economist’s studies and analyses
objectives
Manage and direct major economic studies                   Conduct and oversee office analyses and studies
Establish office-wide policies and procedures              Implement office-wide policies and procedures
Recommend Commission action and legislative                Recommend Commission action and legislative
changes                                                    changes
Provide economic consulting services to the                Supervise and direct major economic studies
Chairman, Commission and senior managers of the
Commission.
Conduct professional outreach activities                   Build economic models
                                                           Establish priorities among studies and other office
                                                           tasks
                                                           Ensure proposed projects contribute to Commission
                                                           objectives
                                                           Provide economic consulting services to the
                                                           Chairman, Commission and senior managers of the
                                                           Commission.




2
    There could be overlapping duties in certain functions such as hiring and other office operations.


OFFICE OF ECONOMIC ANALYSIS (AUDIT 385)                                                           June 29, 2004
                                                                                              APPENDIX B


Comments by Senior Staff
      •    OEA’s contributions are invaluable.
      •    OEA’s updated cost-benefit analysis guidance was useful.
      •    The current Chief Economist is very practical and OEA work products are
           geared to assist the Commission with its day-to-day operations.
      •    OEA has been very helpful to OCIE over the past couple of years and very
           supportive of the Commission’s mission. OEA’s quantitative analyses have
           provided objective support for OCIE’s findings.
      •    OEA has been a great help to Enforcement in determining the amount of
           disgorgement penalties to assess.
      •    OEA recently analyzed an economic study that was presented by a defense
           counsel in an Enforcement case. OEA found the study to be invalid, redid the
           study and came to an objective conclusion that supported Enforcement’s
           allegations against the defendant.
      •    OEA has provided useful assistance to Corporation Finance’s rulemaking
           group.
      •    OEA staff worked on a very good study regarding municipal trading data.
      •    OEA staff are very responsive and supportive of Market Regulation’s
           initiatives and provides constructive and useful information.


      Suggestions by Senior Staff
      •    It would be useful if the Commission library subscribed to Thomson
           Financial First Call. This would enable OEA to access historical data
           regarding analyst estimates on a company’s earnings per share and whether
           the company met those estimates. Enforcement sometimes questions
           whether a company has manipulated its earnings to meet an analyst’s
           estimates.3
      •    OEA should send relevant copies of academic articles or other literature to
           appropriate Commission staff, as OEA comes across such items.
      •    OEA should inform Commission staff of how it is able to assist the
           Commission.
      •    OEA should inform Commission staff of all the data resources that are
           available to OEA.




3
    The library has prepared the contract paperwork and is awaiting final Commission approval of the
     subscription.


OFFICE OF ECONOMIC ANALYSIS (AUDIT 385)                                                        June 29, 2004
